                                                              FY 2013 HUD OIG Conferences 


                                                                       Total                  Number  
                                                                    Conference     Date of      of
                       Conference                        Location    Expenses    Conference   Payees How the Conference Advanced the Mission of the Agency

    The HUD-OIG did not have any conference expenses in excess of $100,000 in fiscal year 2013.
